September 28, 2001

GARY L. MCCURDY
VICE PRESIDENT, EASTERN AREA

SUBJECT:	 Audit Report – Columbus Performance Cluster’s Process for
          Administering Continuation of Pay Leave Benefits
          (Report Number HC-AR-01-002)

This report presents the results of our audit of the Columbus Performance Cluster’s
process for administering continuation of pay leave benefits (Project Number
00RA058HC003). The audit was self-initiated and is the fourth in a series of audits
regarding continuation of pay leave benefits in the Allegheny Area.

The audit revealed opportunities for improving the process of administering these
benefits and complying with Postal Service policies. We provided four
recommendations to improve the process. Management agreed with our
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management's comments and our evaluation of those comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
director, Labor Management at (214) 775-9100 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment
cc: Suzanne F. Medvidovich
    DeWitt O. Harris
    Barbara A. Patterson
    Jeffrey L. Bergen
    Trent R. Clark
    Wayne L. Eggiman
    Lisa M. Jordan
    Timothy F. O’Reilly
    John R. Gunnels
Columbus Performance Cluster’s Process for                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                   TABLE OF CONTENTS

Executive Summary
                                                     i

Part I


Introduction                                                          1


   Background                                                         1

   Objective, Scope, and Methodology                                  2

   Prior Audit Coverage                                               3


Part II


Audit Results                                                         5


   Administration of Injury Leave Benefits Not Always

     in Compliance with Policies                                      5

   Recommendations                                                    9

   Management's Comments                                              9

   Evaluation of Management's Comments                               10


Appendix Management's Comments                                       11





                                         Restricted Information
Columbus Performance Cluster’s Process for                                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                  EXECUTIVE SUMMARY
Introduction                  We completed a self-initiated audit to determine whether the
                              Allegheny Area’s process for approving and tracking the use
                              of continuation of pay leave benefits for injured employees
                              complied with Department of Labor and Postal Service
                              policies. This report on the Columbus Performance Cluster
                              is the fourth report we plan to issue concerning the process
                              for approving and tracking continuation of pay leave benefits
                              in the Allegheny Area.

Results in Brief
             The Columbus Performance Cluster supervisors and inquiry
                              compensation staff did not always comply with Department
                              of Labor and Postal Service policies. The audit revealed the
                              Columbus Performance Cluster’s process for monitoring
                              continuation of pay leave benefits for injured employees
                              needs improvement. Specifically, supervisors did not
                              always request authorization before continuation of pay
                              leave benefits were paid to employees and injury
                              compensation staff did not always properly monitor
                              continuation of pay leave usage. Consequently,
                              management controls over the processing and monitoring of
                              continuation of pay leave benefits were ineffective to
                              prevent 57 unnecessary leave and earnings pay
                              adjustments. The cost to process those pay adjustments
                              was estimated at $4,275. In addition, we identified
                              continuation of pay overpayments totaling about $6,902,
                              which represents funds that could have been put to better
                              use.

Summary of                    To correct the deficiencies associated with processing
Recommendations               continuation of pay leave benefits in the Columbus
                              Performance Cluster, we recommended Postal Service
                              managers issue a cluster-wide policy requiring supervisors
                              to request authorization of continuation of pay leave benefits
                              before those leave benefits are paid to employees. In
                              addition, Postal Service managers should establish
                              management controls for monitoring continuation of pay
                              leave usage and perform a weekly reconciliation of
                              continuation of pay time and attendance reporting.
                              Furthermore, training should be provided to ensure the
                              accurate calculation and documentation of continuation of
                              pay leave benefits.




                                                    i
                                         Restricted Information
Columbus Performance Cluster’s Process for                                         HC-AR-01-002
 Administering Continuation of Pay Leave Benefits




Summary of                    Management agreed with our recommendations and stated
Management's                  that corrective actions will be initiated and implemented at
Comments                      the beginning of fiscal year 2002. Postal Service
                              management in the Columbus Performance Cluster will
                              reissue a district-wide policy requiring authorization from
                              injury compensation personnel before injury leave hours are
                              entered into the payroll system. Detailed instructions
                              regarding the proper completion and submission of Form
                              3971, Request for Notification of Absence, for all injured
                              employees will be provided to each manager. Injury
                              compensation personnel will perform a weekly reconciliation
                              of injury leave hours. Refresher training will be provided to
                              all injury compensation personnel on tracking of injury leave
                              hours. In addition, injury compensation personnel will be
                              required to use the Continuation of Pay/Leave Without Pay
                              timekeeping worksheet in all injury claim files to track injury
                              leave hours. Management’s comments, in their entirety, are
                              included in the appendix of this report.

Overall Evaluation of         Management's comments are responsive to our
Management's                  recommendations and we believe the actions taken or
Comments                      planned should correct the issues identified in this report.




                                                    ii
                                         Restricted Information
Columbus Performance Cluster’s Process for                                                          HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                            INTRODUCTION
Background	                      The Department of Labor, Office of Workers’ Compensation
                                 Programs has sole responsibility for administering the
                                 Federal Employees' Compensation Act. The Code of
                                 Federal Regulations, Title 20, Employees’ Benefits, Part 10,
                                 April 1, 1999, establishes the rules for claiming benefits
                                 under the Federal Employees' Compensation Act.
                                 Specifically, Section 10.200 of the Code of Federal
                                 Regulations states, in part, that the employer must continue
                                 an employee’s regular pay for up to a maximum of
                                 45 calendar days of wage loss due to disability and/or
                                 medical treatment after a traumatic injury. This provision is
                                 called continuation of pay. Continuation of pay (injury
                                 leave) is considered regular income and unlike workers’
                                 compensation wage loss benefits, it is subject to income
                                 taxes and other payroll deductions applicable to regular
                                 income. The intent of the injury leave provision is to prevent
                                 interruption of the employee’s income during the period
                                 immediately after a job-related traumatic injury, while the
                                 Office of Workers’ Compensation Programs adjudicates1 the
                                 employee’s injury claim. After entitlement to the injury leave
                                 expires, the employee may apply for workers’ compensation
                                 wage loss benefits or use personal leave.

                                 The Postal Service is geographically segmented into
                                 11 decentralized areas.2 The Allegheny Area3 is 1 of the
                                 11 areas. During fiscal years (FYs) 1998 and 1999, postal-
                                 wide payments for injury leave benefits averaged
                                 $22.5 million annually for approximately 23,000 employees.
                                 The Allegheny Area averaged $2 million4 in annual injury
                                 leave benefits for approximately 1,8002 employees over the
                                 same 2-year period.

                                 The Allegheny Area is geographically divided into ten
                                 performance clusters including the Columbus Performance
                                 Cluster. Personnel in the Columbus Performance Cluster’s
1
 The process whereby the Office of Workers Compensation Programs considers all information submitted by the
employee, employer, and from its own investigation to reach a decision regarding entitlement to Federal Employees’
Compensation Act benefits.
2
 As of September 8, 2001, the Postal Service was geographically reorganized into nine decentralized areas.
3
 Effective with the Postal Service reorganization on September 8, 2001, the Allegheny Area no longer exists and was
absorbed into a new geographical area, which is now the Eastern Area.
4
 The amounts previously reported in the Erie, Lancaster, and South Jersey Performance Clusters were changed due
to revised continuation of pay data for the Allegheny Area.




                                                        1
                                             Restricted Information
Columbus Performance Cluster’s Process for                                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                              Injury Compensation Control Office (Control Office) manage
                              all injury claims for the entire performance cluster. In
                              addition, Control Office personnel are responsible for
                              authorizing employee requests for injury leave.

Objective, Scope, and         Our audit objective was to determine whether the Columbus
Methodology                   Performance Cluster's process for approving and tracking
                              the use of injury leave benefits was in compliance with the
                              Department of Labor and Postal Service policies. In
                              addition, we reviewed internal controls applicable to these
                              benefits.

                              To accomplish our objective, we reviewed Postal Service
                              policies and procedures associated with injury leave
                              benefits. We interviewed representatives from Postal
                              Service Headquarters, the Health and Resource
                              Management Office, and the Control Office. In addition, we
                              contacted representatives from the Department of Labor,
                              Office of Workers' Compensation Programs to discuss
                              certain aspects of the injury leave guidance.

                              This audit was limited to FY 2000 injury leave claims
                              administered by the Columbus Performance Cluster for pay
                              periods 20 through 26 in calendar year 1999 and pay
                              periods 1 through 7 in calendar year 2000. We reviewed all
                              injury leave claims for the 50 employees covered by the
                              audit scope. The results from this location will be
                              incorporated in a subsequent audit report as part of the
                              overall projected results for the entire Allegheny Area.

                              We relied extensively on computer-processed payroll data
                              contained in the Postal Service Payroll Paydata and
                              Employees Master Files. We also relied on prior audit work
                              performed by the Postal Service Office of Inspector General
                              (OIG) on the FY 1999 Postal Service financial statement
                              audit to assess the payroll function’s general and application
                              controls. In addition, we traced statistically selected data
                              from payroll pay data and employee master files to the
                              source documentation. Based on prior audit results and
                              alternative testing procedures performed during the audit,
                              we assessed the reliability of these data, including relevant
                              general and application controls, and found them adequate.
                              As a result of tests and assessments, we consider the
                              computer-processed data significantly reliable to satisfy the
                              audit objectives.



                                                    2
                                         Restricted Information
Columbus Performance Cluster’s Process for                                       HC-AR-01-002
 Administering Continuation of Pay Leave Benefits



                              Our audit was conducted from May 2000 through
                              September 2001, in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our findings and
                              recommendations with appropriate management officials
                              and included their comments, where appropriate.

Prior Audit Coverage	         South Jersey Performance Cluster’s Process for
                              Administering Continuation of Pay Leave Benefits
                              (HC-AR-00-001), dated September 28, 2000, concluded
                              that the process for monitoring injury leave benefits needed
                              improvement. Specifically, supervisors and injury
                              compensation control office staff did not always properly
                              process and monitor injury leave benefits. Postal Service
                              management concurred with the recommendations and
                              actions taken or planned should correct the issues identified
                              in our report.

                              Erie Performance Cluster’s Process for Administering
                              Continuation of Pay Leave Benefits (HC-AR-00-002), dated
                              September 28, 2000, concluded that the process for
                              monitoring injury leave benefits was generally sufficient.
                              Postal Service management concurred with the
                              recommendations and actions taken or planned should
                              correct the issues identified in our report.

                              Lancaster Performance Cluster’s Process for Administering
                              Continuation of Pay Leave Benefits (HC-AR-00-003), dated
                              September 28, 2000, concluded that the process for
                              monitoring injury leave benefits needed improvement.
                              Specifically, supervisors and injury compensation control
                              office staff did not always properly process and monitor
                              injury leave benefits. Postal Service management
                              concurred with the recommendations and actions taken or
                              planned should correct the issues identified in our report.

                              Consolidated Report on the Audit of Employing Agency
                              Workers’ Compensation Programs, (02-96-223-04-431),
                              dated February 16, 1996, issued by the President's Council
                              on Integrity and Efficiency, Audit Committee, was designed
                              to evaluate the effectiveness and efficiency of employing
                              agency workers' compensation programs. Of the
                              13 inspector general agencies included in the audit, the



                                                    3
                                         Restricted Information
Columbus Performance Cluster’s Process for                                       HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                              Department of Transportation, Office of Inspector General
                              was the only agency that reported on injury leave benefits.
                              The Department of Transportation, Office of Inspector
                              General reported that 26 percent of the claims reviewed
                              received injury leave benefits although:

                                     •	 The Office of Workers’ Compensation Programs
                                        denied compensation claims.

                                     •	 The time for eligible use had expired.

                                     •	 No claim had been submitted to the Office of
                                        Workers’ Compensation Programs.

                              Overall, employing agency officials agreed that
                              improvements were needed in the workers' compensation
                              program.




                                                    4
                                         Restricted Information
Columbus Performance Cluster’s Process for                                                                   HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                            AUDIT RESULTS
Administration of                The Columbus Performance Cluster supervisors and
Injury Leave Benefits            Control Office staff did not always comply with Department
Not Always in                    of Labor and Postal Service policies. We found that 26 out
Compliance with                  of the 50 injury leave claims reviewed contained errors
Policies                         estimated to cost the Postal Service $4,275.5 These errors
                                 are listed in the table below. The incorrect processing of
                                 injury leave benefits occurred because supervisors did not
                                 always follow established procedures for authorizing and
                                 documenting such benefits. In addition, Control Office staff
                                 did not effectively monitor injury leave usage.
                                 Consequently, internal controls over the processing of injury
                                 leave benefits were ineffective to prevent 57 unnecessary
                                 pay adjustments needed to correct employees’ applicable
                                 sick, annual, or other leave balances. Furthermore, we
                                 identified injury leave overpayments totaling $6,902,6 which
                                 represents funds that could have been put to better use.

                                                  Columbus Performance Cluster Estimated
                                                    Processing Costs and Overpayments
                                                                  Number of      Cost @ $75    Overpayment
                                                 Injury Claims
                                                                     P ay            per        Amount s
                                                  With Errors
                                                                 Adjust ment s   Adjust ment

                                                       1              2           $150.00
                                                       2              2           $150.00
                                                       3              1            $75.00
                                                       4              3           $225.00
                                                       5              1            $75.00
                                                       6              2           $150.00
                                                       7              3           $225.00
                                                       8              1            $75.00
                                                       9              1            $75.00
                                                      10              2           $150.00
                                                      11              2           $150.00      $1,343.00
                                                      12              1            $75.00
                                                      13              6           $450.00      $1,031.00
                                                      14              2           $150.00
                                                      15              1            $75.00
                                                      16              4           $300.00
                                                      17              1            $75.00
                                                      18              1             $75.0
                                                      19              6           $450.00
                                                      20              1            $75.00
                                                      21              1            $75.00
                                                      22              2           $150.00
                                                      23              1            $75.00
                                                      24              8           $600.00      $4,528.00
                                                      25              1            $75.00
                                                      26              1            $75.00


                                                 Totals             57           $4,275.00     $6,902.00


5
 The Postal Service estimates each pay adjustment costs $75 on average and in some extreme cases pay
adjustments could cost as much as $175 based on the time expended by responsible Postal Service employees. For
audit reporting purposes, we used the lower estimate of $75 per pay adjustment.
6
 Injury leave overpayments result when injury leave hours are paid in error and the employee does not have available
sick or annual leave to cover the absence mistakenly recorded. Injury leave overpayments also result when hours
are paid in error while the employee is simultaneously receiving wage compensation payments from the Office of
Workers’ Compensation Programs. Consequently, recovery procedures must be executed to collect overpaid hours
from the employee.



                                                         5
                                              Restricted Information
Columbus Performance Cluster’s Process for                                                         HC-AR-01-002
 Administering Continuation of Pay Leave Benefits



Injury Leave Benefits            Supervisors did not always follow the process for
Approved Without                 authorizing injury leave benefits. Postal Service policy7
Proper Authorization             requires that injury leave should not be input until
                                 supervisors receive authorization from the Control Office
                                 staff and injury leave must be requested via leave slips.8
                                 However,supervisors did not receive proper authorization
                                 from Control Office staff before approving injury leave
                                 benefits for 14 out of the 26 injury leave claims we identified
                                 with injury leave errors. Furthermore, 5 out of the 14 injury
                                 leave claims represented uninjured employees who
                                 received unauthorized injury leave benefits instead of the
                                 appropriate annual, sick, or other leave benefits. The
                                 supervisors’ failure to request and receive proper
                                 authorization from Control Office staff before approving
                                 injury leave led to 29 unnecessary pay adjustments and
                                 overpayments totaling approximately $2,375.

                                 When uninjured employees receive unauthorized injury
                                 leave, the Postal Service is essentially allowing these
                                 employees an approved absence from work, unrelated to an
                                 on-the-job injury. Moreover, uninjured employees’
                                 applicable sick or annual leave balances are not reduced
                                 and remain overstated.

Requests for Injury              Proper timekeeping and accounting procedures are
Leave Benefits Not               essential for effective management and administration of the
Properly Documented              injury compensation program. Postal Service timekeeping
                                 and accounting guidelines require that a supervisor ensure
                                 a leave slip is completed promptly after being advised of an
                                 employee request for injury leave. When a traumatic injury
                                 occurs and employees are unable to complete a leave slip
                                 to request injury leave, supervisors are expected to perform
                                 this function. The senior installation official is required to
                                 retain leave slips for 2 years from the date leave is taken or
                                 disapproved. Contrary to this guidance, supervisors did not
                                 always follow established procedures for documenting
                                 requests for injury leave. Our review disclosed that leave
                                 slips for 41 out of the 50 injury leave claims were either



7
 Postal Service Handbook, EL-505, Injury Compensation, December 1995, Chapter 3, Section 3.11, “Completing and
Forwarding Claim Information,” states supervisors should ensure that employees’ requests for injury leave benefits
are authorized by the Control Office staff.
8
 Employee requests for injury leave hours are reported on PS Form 3971, “Request for or Notification of Absence.”



                                                        6
                                             Restricted Information
Columbus Performance Cluster’s Process for                                             HC-AR-01-002
 Administering Continuation of Pay Leave Benefits



                                 improperly prepared or did not exist. We were unable to
                                 reconcile requested injury leave benefits with paid hours
                                 due to improperly completed or missing leave slips.

                                 Although leave slips were improperly prepared or missing,
                                 we used other injury claim file documentation such as
                                 medical information, payroll journals, and clock rings and
                                 hours history reports to determine appropriate injury leave
                                 benefits. Employees must complete a leave slip to
                                 document requested injury leave benefits because such
                                 benefits are not automatically provided to injured
                                 employees. Therefore, improperly prepared or missing
                                 leave slips made it difficult to determine whether employees
                                 initially requested any injury leave benefits. Consequently,
                                 without an adequate audit trail, we were not reasonably
                                 assured that all injury leave hours recorded in the payroll
                                 system resulted from employee requests for injury leave
                                 benefits.

Injury Leave Usage               Our review disclosed situations where Control Office staff
Not Adequately                   did not effectively monitor injury leave usage from the
Monitored                        inception of the injury leave claim through its injury leave
                                 eligibility timeframe. Postal Service Handbook, EL-505,
                                 Injury Compensation, Chapter 13, “Timekeeping and
                                 Accounting,” requires that Control Office staff monitor injury
                                 leave hours to ensure employees do not receive such
                                 benefits for more than a 45-calendar day period. We
                                 identified 12 properly authorized injury leave claims out of
                                 26 claims with injury leave errors that the Control Office staff
                                 did not adequately monitor. In addition to the previously
                                 reported 29 pay adjustments resulting from supervisors’
                                 improperly authorizing injury leave benefits, the Control
                                 Office staff’s failure to properly monitor injury leave usage
                                 resulted in 28 additional pay adjustments and injury leave
                                 overpayments totaling about $4,528.

                                 We found the Control Office staff did not reconcile the
                                 “Workers’ Compensation-Injury on Duty” report9 with injury
                                 leave claims as required by Postal Service Handbook
                                 guidance. Chapter 13, Section 13.17, which addresses
                                 recovery of excessive injury leave hours, states the Control
                                 Office staff should use the “Workers’ Compensation–Injury


This report is automatically generated each accounting period.
9




                                                        7
                                             Restricted Information
Columbus Performance Cluster’s Process for                                                           HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                 on Duty,” report to review injury leave data. The report is
                                 used to reconcile injury leave benefits after those benefits
                                 have been reported and paid. Had the Control Office staff
                                 used this report to reconcile injury leave hours, the 26 injury
                                 claims with injury leave errors would have been identified for
                                 correction prior to our audit. Because the existing report is a
                                 back-end monitoring control and the report is not designed
                                 to determine whether employees are entitled to injury leave
                                 benefits, we believe a front-end reconciliation control is
                                 needed to assist the Control Office staff in performing
                                 weekly monitoring of injury leave hours.

                                 While the Postal Service does not currently have a front-end
                                 reconciliation capability within the Postal Source Data
                                 System for monitoring injury leave hours,10 we noted the
                                 Postal Service is implementing a new time and attendance
                                 reporting system11 that will allow a front-end monitoring of
                                 injury leave and other hourly leave categories. The
                                 Columbus Performance Cluster implemented the new
                                 timekeeping system in March 2001.12 In our opinion, the
                                 use of this front-end reconciliation capability, if implemented,
                                 could reasonably reduce the recording of inappropriate
                                 injury leave hours, thereby avoiding unnecessary payroll
                                 adjustments.

                                 Further, we determined Control Office staff did not properly
                                 annotate case files to document authorized injury leave
                                 usage. Chapter 13 of the handbook states that a
                                 timekeeping worksheet13 should be used to assist Control
                                 Office staff with tracking actual injury leave hours and days
                                 used by employees. The Control Office staff either
                                 improperly prepared or did not use the timekeeping
                                 worksheet to monitor employee injury leave hours and days
                                 for 38 out of 50 injury leave claims. In addition, no
                                 timekeeping worksheet existed for 10 of the 38 injury leave
                                 claims. Had the Control Office staff used or properly
                                 prepared the timekeeping worksheets, the incorrect injury
                                 leave benefits paid for any one injury and the resulting

10
   The Postal Source Data System is used to report time and attendance for the majority of Postal Service employees

in the Columbus Performance Cluster.

11
   The new time and attendance reporting system is entitled, “Time and Attendance Collection System.”

12
   Queries of the Time and Attendance Collection System should be performed weekly, no later than Friday of each
week. The review and validation of injury leave time reporting should be completed before the injury leave hours are
finalized in the payroll system.
13
   The timekeeping worksheet is specifically entitled, “COP/Leave Without Pay Injury on Duty Timekeeping
Worksheet.”



                                                         8
                                              Restricted Information
Columbus Performance Cluster’s Process for                                                             HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                    unnecessary pay adjustments could have been avoided.
                                    Furthermore, proper use of the timekeeping worksheet
                                    provides internal staff and external reviewers the ability to
                                    obtain a timely, chronological listing of events that have
                                    occurred on each individual injury leave claim.

Recommendation	                     We recommend the vice president, Eastern Area
                                    Operations, direct the district and plant managers to

                                    1.	 Issue a cluster-wide policy requiring every supervisor to
                                        request authorization from the Control Office staff before
                                        any injury leave hours are entered into the payroll
                                        system.

                                         •	 The policy should include instructions detailing
                                            supervisory responsibilities for ensuring the proper
                                            completion of leave requests.14

                                         •	 The policy should require the processing of all injury
                                            leave requests to the finance and timekeeping
                                            elements and retention of supporting documentation
                                            in employee injury claim files.

Management's                        Management agreed with the recommendation. A district-
Comments                            wide policy will be reissued requiring supervisors to request
                                    authorization from Control Office personnel before any injury
                                    leave hours are input into the payroll system. Detailed
                                    instructions regarding the proper completion of Form 3971,
                                    “Request for Notification of Absence,” for all injured
                                    employees will be provided to each manager. In addition,
                                    Postal Service managers will be required to submit the
                                    completed leave requests to the appropriate finance
                                    department and send a copy to the Control Office for
                                    retention in the employee's injury claim file.

Recommendation
                     2.	 Require the manager, Human Resources, to execute
                                        frequent monitoring of injury leave usage. Specifically, a
                                        process should be established to document the
                                        reconciliation of the Workers’ Compensation–Injury on
                                        Duty report each accounting period and ensure
                                        appropriate corrective actions are executed.

Management's	                       Management agreed with our recommendation. The
Comments	                           Control Office will be required to conduct reconciliation of
                                    the Workers' Compensation-Injury on Duty report every
                                    accounting period. All unauthorized and erroneous injury
14
     Employee requests for leave hours are reported on PS Form 3971, “Request for or Notification of Absence.”



                                                           9
                                                Restricted Information
Columbus Performance Cluster’s Process for                                                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                                leave hours will be documented, along with the appropriate
                                corrective action taken to resolve the incorrect injury leave
                                hours.

Recommendation                  3.	 Require the manager, Human Resources, to direct the
                                    Control Office staff to perform a front-end reconciliation
                                    of injury leave hours on a weekly basis. The weekly
                                    review will allow validation of injury leave hours before
                                    time accounting is finalized in the payroll system.

Management's	                   Management agreed with our recommendation. Control
Comments	                       Office personnel will be required to reconcile injury leave
                                hours on a weekly basis. Since the Columbus Performance
                                Cluster is currently using the Time and Attendance Control
                                System, the weekly reconciliation can be completed each
                                Friday before the hours are finalized in the payroll system.

Recommendation                  4.	 Require the manager, Human Resources, to provide
                                    refresher training in computing and tracking injury leave
                                    to Control Office personnel.

                                     •	 The training should provide detailed instructions on
                                        how to accurately compute the 45-day injury leave
                                        entitlement period.
                                     •	 The training should mandate the use of the
                                        timekeeping worksheet15 to monitor employee injury
                                        leave hours and days.

                                     •	 The training should direct the Human Resource
                                        specialists to include the timekeeping worksheet in
                                        each injury leave claim file to facilitate timely internal
                                        and external review of the files

Management's                    Management agreed with our recommendation. Refresher
Comments                        training will be provided for all Control Office personnel on
                                the tracking of injury leave hours. Also, Control Office
                                personnel will be required to use the Continuation of
                                Pay/Leave Without Pay timekeeping worksheet in every
                                injury claim file to track injury leave hours.

Evaluation of                   Management's comments are responsive to our
Management's                    recommendations and we believe the actions taken and
Comments                        planned should correct the issues identified in this report.




15
 The timekeeping worksheet is specifically entitled, “COP/Leave Without Pay Injury on Duty Timekeeping
Worksheet.”



                                                       10
                                             Restricted Information
Columbus Performance Cluster’s Process for                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                   11
                                         Restricted Information
Columbus Performance Cluster’s Process for                        HC-AR-01-002
 Administering Continuation of Pay Leave Benefits




                                                   12

                                         Restricted Information
